 Pension Benefit Guaranty Corporation
           Office of Inspector General

                     Audit Report


Audit of the Pension Benefit Guaranty Corporation's
 Fiscal Years 2000 and 1999 Financial Statements


               Report of Independent Accountants

                   Report on Internal Control

    Report on Compliance With Applicable Laws and Regulations



              Pension Benefit Guaranty Corporation's
         Fiscal Years 2000 and 1999 Financial Statements
               and Notes to the Financial Statements




                      March 29, 2001
                                                           2001-9/23149-2
                                                                            Office of Inspector General


To the Board of Directors 

Pension Benefit Guaranty Corporation 


This letter transmits the PricewaterhouseCoopers LLP (PricewaterhouseCoopers) report on the 

audit of the Fiscal Years (FYs) 2000 and 1999 financial statements of Single-Employer and 

Multiemployer Program Funds administered by the Pension Benefit Guaranty Corporation

(PBGC) and the results of the Office of Inspector General’s (OIG) review. 


Section 9105 of 31 U.S.C., as amended, requires PBGC’s Inspector General or an independent

external auditor, as determined by the Inspector General, to audit PBGC’s financial 

statements. The audit is to be performed in accordance with Government Auditing Standards

as issued by the Comptroller General of the United States and other applicable requirements. 


PricewaterhouseCoopers issued an unqualified opinion on the FYs 2000 and 1999 financial 

statements of Single-Employer and Multiemployer Program Funds administered by PBGC. In 

addition, PricewaterhouseCoopers issued two other reports - an unqualified opinion on PBGC 

management’s assertion about the effectiveness of its internal control and a report on PBGC’s 

compliance with laws and regulations. The FY 1999 audit identified four reportable conditions 

in PBGC’s internal control. Audit work during FY 2000 confirmed that PBGC had 

strengthened its controls to protect critical information to warrant downgrading the reportable

condition to a less significant management letter comment. However, three other reportable

conditions remain. 


   1. 	PBGC needs to integrate its financial management systems and improve its systems
       development life cycle methodology;
   2.	 PBGC needs to improve and fully test its plan for maintaining continuity of operations;
       and
   3. PBGC needs to further improve controls surrounding the Participant Records
       Information Systems Management application.

The report on PBGC’s compliance with laws and regulations includes a matter of emphasis
paragraph that discusses certain PBGC payments to multiemployer plans characterized as
financial assistance. PBGC represents that these transactions were executed in accordance
with the Employee Retirement Income Security Act of 1974 (ERISA), as amended. However,
PBGC’s OIG determined that further evaluation is warranted to resolve compliance issues.

To fulfill our responsibility under the statute, we monitored the quality of audit work performed
in accordance with Government Auditing Standards. Specifically, we:

   •    reviewed PricewaterhouseCoopers’ approach and planning of the audit;
   •    evaluated the qualifications and independence of its auditors;
   •    monitored the progress of the audit at key points;
   •	   examined its working papers and reports to evaluate compliance with Government
        Auditing Standards; and
   •    performed other procedures that we deemed necessary.
Based on the results of our review, the OIG determined that PricewaterhouseCoopers planned,
executed, and reported the results of its audit of FYs 2000 and 1999 financial statements of
Single-Employer and Multiemployer Program Funds administrated by PBGC in accordance
with applicable standards. Therefore, in our opinion, PricewaterhouseCoopers’ work provides a
reasonable basis on which to render its January 19, 2001 opinion, and we concur with its
report.

A set of PricewaterhouseCoopers’ reports (2001-9/23149-2) is available upon request from the
PBGC’s Office of Inspector General.

Sincerely,




Wayne Robert Poll
Inspector General

February 23, 2001




                                         -2-
               Audit of the Pension Benefit Guaranty Corporation’s
                Fiscal Year 2000 and 1999 Financial Statements

                           Audit Report 2001-9/23149-2




                                    Contents


Section I:    Report of Independent Accountants


Section II:   Report on Internal Control


Section III: 	 Report on Compliance with Applicable
               Laws and Regulations


Section IV: 	 Pension Benefit Guaranty Corporation’s Fiscal
              Years 2000 and 1999 Financial Statements and
              Notes to the Financial Statements


Section V:    Agency Comments
                         Abbreviations



AICPA   American Institute of Certified Public Accountants 

ALG     Automated Letter Generation 

COOP    Continuity of Operations Plan 

CSRS    Civil Service Retirement System

ERISA   Employee Retirement Income Security Act of 1974 

FASD    Facilities and Services Department 

FBA     Field Benefit Administrators 

FERS    Federal Employees Retirement System

FMFIA   Federal Managers’ Financial Integrity Act of 1982 

FRS     Financial Reporting System

GAM     Group Annuity Mortality 

IOD     Insurance Operations Department

IPS     Image Processing System

IPVFB   Integrated Present Value of Future Benefits

IRMD    Information Resource Management Department 

JFMIP   Joint Financial Manager’s Improvement Program 

OIG     Office of Inspector General 

OMB     Office of Management and Budget

OPM     Office of Personnel Management 

PA      Performance Accounting               

PAS     Premium Accounting System

PBGC    Pension Benefit Guaranty Corporation 

PLUS    Pension and Lump Sum System

PRISM   Participant Records Information Systems Management 

PVFB    Present Value of Future Benefits

SDLC    Systems Development Life Cycle

TPD     Trusteeship Processing Division 

TPL     Trust Plan Ledger

            Section I


Report of Independent Accountants

                                                                                  PricewaterhouseCoopers LLP
                                                                                  1751 Pinnacle Drive
                                                                                  McLean, VA 2212
                                                                                  Telephone: (703) 918-3000
                                                                                  Fax: (703) 918-3157
                          Report of Independent Accountants


To the Inspector General

Pension Benefit Guaranty Corporation 


We have audited the accompanying statements of financial condition as of September 

30, 2000 and 1999, of the Single-Employer and Multiemployer Program Funds 

administered by the Pension Benefit Guaranty Corporation (PBGC) and the related

statements of operations and changes in net position and statements of cash flows for 

the years then ended. These financial statements are the responsibility of PBGC's 

management. Our responsibility is to express an opinion on these financial statements 

based on our audits.


We conducted our audits in accordance with auditing standards generally accepted in 

the United States of America and Government Auditing Standards, issued by the

Comptroller General of the United States. Those standards require that we plan and 

perform the audit to obtain reasonable assurance about whether the financial 

statements are free of material misstatement. An audit includes examining, on a test

basis, evidence supporting the amounts and disclosures in the financial statements.

An audit also includes assessing the accounting principles used and significant 

estimates made by management, as well as evaluating the overall financial statement

presentation. We believe that our audits provide a reasonable basis for our opinion.


In our opinion, the financial statements referred to above present fairly, in all material 

respects, the financial position of the Single-Employer and Multiemployer Program 

Funds administered by PBGC as of September 30, 2000 and 1999, and the results of

their operations and cash flows for the years then ended in conformity with accounting 

principles generally accepted in the United States of America.


By law, PBGC's Single-Employer Program Fund (the Fund) must be self-sustaining and 

as such, its premiums must be sufficient to cover both its short and long-term 

obligations. The Fund is able to meet its short-term benefit obligations and internal 

analyses indicate that the combined effect of future premium revenue and reduced

underfunding of Single-Employer plans may allow the Fund to meet its future

obligations as well. While the Fund’s statement of financial condition reports a net 

position (assets in excess of liabilities) of $9.7 billion at September 30, 2000, losses that 

are “reasonably possible” as a result of unfunded vested benefits are estimated to be $5 

billion, as discussed in Note 7. To the extent contingent losses currently classified as 

“reasonably possible” become more likely, such as from deteriorating economic 

conditions or from insolvency of a large plan sponsor, the Fund’s net position could be

depleted.


The Actuarial Valuation and other supplemental information contain a wide range of 

data, some of which are not directly related to the principal financial statements. We

do not express an overall opinion on this 


                                                                                        2001-9/23149-2 

Report of Independent Accountants
Page 2

information. However, we compared this information for consistency with the principal
financial statements and discussed the methods of measurement and presentation with
PBGC officials. Based on this limited work, we found no material inconsistencies with
the principal financial statements.

In addition, in accordance with Government Auditing Standards, we have issued reports
dated January 19, 2001, on PBGC management’s assertion about the effectiveness of
its internal control and on its compliance with laws and regulations. These reports are
integral parts of an audit conducted in accordance with Government Auditing
Standards, and, in considering the results of the audit, these reports should be read
along with the Report of Independent Accountants on the financial statements.




January 19, 2001
Arlington, Virginia




                                                                                 2001-9/23149-2 

        Section II


Report on Internal Control

                                                                                        PricewaterhouseCoopers LLP
                                                                                        1751 Pinnacle Drive
                                                                                        McLean, VA 2212
                                                                                        Telephone: (703) 918-3000
                                                                                        Fax: (703) 918-3157
                    Independent Accountants’ Report on Internal Control

To the Inspector General 

Pension Benefit Guaranty Corporation 


We have examined management’s assertion that the Pension Benefit Guaranty Corporation’s 

(PBGC or the Corporation) management controls in effect as of September 30, 2000, provided

reasonable assurance that assets were safeguarded from material loss and that transactions were

executed in accordance with management’s authority and with significant provisions of selected

laws and regulations, and furthermore, PBGC management controls provided reasonable

assurance that transactions were properly recorded, processed, and summarized to permit the

preparation of the financial statements in accordance with accounting principles generally 

accepted in the United States of America and to maintain accountability for assets among funds. 

This assertion is included in the Management’s Discussion and Analysis of Financial Condition 

and Results of Operations section of PBGC’s fiscal year 2000 Annual Report to the Congress.

Management is responsible for maintaining effective internal control over financial reporting. Our 

responsibility is to express an opinion on management’s assertion based on our examination. 


Our examination was conducted in accordance with attestation standards established by the

American Institute of Certified Public Accountants (AICPA) in the United States of America and 

Government Auditing Standards, and, accordingly, included obtaining an understanding of the

internal control over financial reporting, testing, and evaluating the design and operating 

effectiveness of the internal control, and performing such other procedures as we considered

necessary in the circumstances. We believe that our examination provides a reasonable basis for 

our opinion. 


Because of inherent limitations in any internal control, misstatements due to error or fraud may 

occur and not be detected. Also, projections of any evaluation of the internal control over

financial reporting to future periods are subject to the risk that the internal control may become

inadequate because of changes in conditions or that the degree of compliance with the policies or 

procedures may deteriorate.


In our opinion, management’s assertion that PBGC’s management controls in effect as of 

September 30, 2000 provided reasonable assurance that assets were safeguarded from material 

loss and that transactions were executed in accordance with management’s authority and with 

significant provisions of selected laws and regulations, and furthermore, PBGC management 

controls provided reasonable assurance that transactions were properly recorded, processed, and 

summarized to permit the preparation of the financial statements in accordance with accounting 

principles generally accepted in the United States of America and to maintain accountability for 

assets among funds is fairly stated, in all material respects, based upon criteria contained in the

Federal Managers’ Financial Integrity Act of 1982 (FMFIA). 


However, we noted certain matters involving internal control and its operation that we consider to 

be reportable conditions under auditing standards generally accepted in the United States of 

America. Reportable conditions involve matters coming to our attention relating to significant 

deficiencies in the design or operation of the internal control that, in our judgment, could 

adversely affect the organization’s ability to record, process, summarize, and report financial data 

consistent with the assertions of management in the financial statements. The reportable

conditions we noted were: the need for PBGC to integrate its financial management systems and 

improve its systems development life cycle methodology; 





                                                                                              2001-9/23149-2 

Report on Internal Control
Page 2

the need for PBGC to improve and fully test its plan for maintaining continuity of operations; and
the need for PBGC to further improve controls surrounding the Participant Records Information
Systems Management application.

A material weakness is a reportable condition in which the design or operation of one or more of
the internal control components does not reduce to a relatively low level the risk that errors or
fraud in amounts that would be material in relation to the financial statements being audited
may occur and not be detected within a timely period by employees in the normal course of
performing their assigned functions.

Our consideration of internal control would not necessarily disclose all reportable conditions that
are also considered to be material weaknesses as defined above. However, none of the reportable
conditions described below is believed to be a material weakness.


                                   REPORTABLE CONDITIONS

1. Systems Design and Integration

Financial Management Systems Integration

In prior fiscal year audits of PBGC, we identified a lack of integration of the Corporation’s
financial management systems, as defined by the Office of Management and Budget’s (OMB)
Circular A-127, Financial Management Systems. PBGC’s financial management systems include
the Performance Accounting (PA) System and the Trust Plan Ledger (TPL), which are PBGC’s
general ledger systems, as well as the Financial Reporting System (FRS). PBGC’s financial
management systems include the Participant Records Information System Management (PRISM),
the Premium Accounting System (PAS), and the Integrated Present Value of Future Benefits
(IPVFB). Although PBGC replaced the Financial Accounting and Reporting System (FARS)
Revolving Fund with PA in October 1999 in efforts to integrate PBGC’s financial management
systems, PBGC continues to lack complete financial management system integration. As a
result, the lack of complete integration continues to impact the Corporation’s ability to promptly
and efficiently accumulate and summarize information required for internal and external
financial reporting.

OMB Circular A-127 states that financial management systems should be designed to provide for
effective and efficient interrelationships between systems.

        The term “single, integrated financial management system” means a unified set of financial
        systems and the financial portions of mixed systems encompassing the software, hardware,
        personnel, processes (manual and automated), procedures, controls and data necessary to
        carry out financial management functions, manage financial operations of the agency and
        report on the agency’s financial status to central agencies, Congress and the public. Unified
        means that the systems are planned for and managed together, operated in an integrated
        fashion, and linked together electronically in an efficient and effective manner to provide
        agency-wide financial system support necessary to




                                                                                              2001-9/23149-2 

Report on Internal Control
Page 3

        carry out the agency’s mission and support the agency’s financial management needs.

The Joint Financial Management Improvement Program (JFMIP)'s "Core Financial System
Requirements" document, developed for Federal government entities, reinforces the need for
integrated financial systems. This document clearly states that:

        Financial management systems must be designed with effective and efficient
        interrelationships between software, hardware, personnel, procedures, controls, and data
        contained within systems.

The document lists the following integrated, financial management system attributes:

        •	   Standard data classifications (definition and formats) established and used for
             recording financial events,
        •    Common processes used for processing similar kinds of transactions,
        •	   Internal controls over data entry, transaction processing, and reporting applied
             consistently, and
        •    A system design that eliminates unnecessary duplication of transaction entry.

In addition, the JFMIP document further states that for the development of any integrated
information system, the following elements need to be incorporated:

        •    The scope of the functions to be supported (processes),
        •    How data quality will be assured (data stewardship),
        •    The information to be processed (management information),
        •    How systems fit together to support the functions (systems architecture), and
        •    Safeguards needed to ensure the integrity of operations and data (internal control).

Given the lack of integration of its financial management systems, PBGC did not meet the
requirements of JFMIP and OMB Circular A-127. As noted in previous years, PBGC’s financial
management systems did not promote efficiencies in processing financial data and were not able
to avoid the manual re-keying of transactions or extraction of data.

Systems Development Life Cycle (SDLC) Methodology

In addition to the lack of financial management systems integration, we have reported in prior
years that PBGC had not formalized and implemented an SDLC methodology. We found that
improvements in this area were still needed as of September 30, 2000. In general, an SDLC
methodology defines the standards for effectively managing software development and includes
the following:

        •	   Analysis – Defines the scope of the project and what the organization wants to
             accomplish. Requirements definition is prepared, which then enables an evaluation
             of potential solutions;




                                                                                             2001-9/23149-2 

Report on Internal Control
Page 4

        •	   Design – After the project team becomes familiar with the requirements and accepted
             solution, specific parameters and data fields are incorporated into a design which
             meets the business needs;

        •	   Construction – Reports/screens/interfaces/programs are created and tested, the
             entire system is tested and accepted by the business user, and policies and
             procedures are developed, including user manuals;

        •	   Implementation – Data is converted or created, users are trained, and
             completed/accepted system is delivered to the user and put into production; and

        •	   Post-implementation – Once implemented, a mechanism is in place to define how
             continued maintenance, support, and operations will be performed and monitored,
             ensuring an effective level of control and adherence to PBGC policies and standards.

As mentioned above, OMB Circular A-127 states that “agency financial management systems
shall conform to existing applicable functional requirements for the design, development,
operation, and maintenance of financial management systems”. OMB Circular A-127 also
addresses requirements with respect to systems documentation, training and user support,
maintenance, financial management system improvements, and internal controls related to the
systems. In addition, the JFMIP's "Federal Financial Management Systems Requirements"
provides guidance on this subject.

In fiscal year 1999, PBGC continued its efforts in the development of an SDLC methodology,
making significant progress, including defining the foundation for the significant components
required and an action plan with a specific timeline for completion and implementation of this
methodology. Our fiscal year 2000 testing disclosed that PBGC successfully completed
developing their SDLC methodology; however, PBGC needs to effectively implement it. Currently,
PBGC has several projects in the development phase that will be following the new SDLC
methodology. In addition, any new systems projects, including those performed by contractors,
should comply with SDLC methodology. In order for effective implementation of the SDLC
methodology to take place, senior management needs to support it by requiring systems related
projects to adhere to the SDLC methodology developed. An enterprise-wide implementation of
this process will help ensure this methodology is used consistently in the development of
business systems applications with appropriate oversight from PBGC management. The lack of a
fully implemented SDLC methodology has historically impacted, and may continue to impact,
data conversion efforts, security administration, user acceptance testing, reports definition, and
consistency of systems development initiatives.

Systems Development Monitoring and Oversight

PBGC continues to lack specific criteria to adequately manage and monitor its systems
development projects that are outsourced to vendors. In addition, the policies for monitoring
outside service providers do not address the roles and responsibilities of PBGC in overseeing the
service provider in areas related to security, capacity planning, back-up and recovery, and
intrusion detection. As a result, inadequate security mechanisms may be implemented by
outside service providers, increasing the risk of unauthorized access. During fiscal year 2000, we
continued to note that the lack of specific criteria or proper monitoring impacted the adequacy of
logical access controls and the initial design of front-end edits related to certain PBGC
applications. PBGC is reducing its dependency on current outsourcing arrangements with
outside service providers by moving systems in-house; however, those remaining contractor
arrangements still require adequate management and monitoring by PBGC. Specifically, our




                                                                                           2001-9/23149-2 

Report on Internal Control
Page 5

testing at the Department of Commerce that runs PA in the UNIX environment revealed that this
system was vulnerable to several security weaknesses. Because disclosure of detailed
information about these weaknesses might further compromise controls, we are providing no
further details here. Instead, the specifics are presented in a separate report issued by PBGC’s
Office of Inspector General.

Furthermore, PBGC continues to lack the formal methodologies and requirements to monitor the
development and support of its business applications provided by 3rd party vendors that should
be defined and enforced through its systems development process. Also, PBGC lacks specific
mechanisms for ensuring the continued effectiveness of operational and financial management
controls once systems are implemented. As a result, PBGC will continue to be vulnerable to weak
security mechanisms that may be incorporated into current and future systems development
efforts.

Recommendations:

We recommend that the Corporation:

        •	   Complete its efforts to integrate its financial management systems, in accordance
             with OMB Circular A-127 and its Five-Year Financial Management Systems Plan;
             (OIG Control Number FOD-268)

        •	   Implement the formal systems development life cycle methodology on systems
             acquisition or development projects, and require the same of contractors; and (OIG
             Control Number IRMD-92)

        •	   Identify specific criteria to allow PBGC to effectively monitor systems outsourcing
             relationships. (OIG Control Number IRMD-93)

2. Continuity of Operations

In prior fiscal year audits, we reported that PBGC had not provided the necessary attention to
business continuity issues and had not fully developed and tested a thorough disaster
recovery/business continuity plan. In fiscal year 2000, PBGC made progress in developing an
entity-wide continuity of operations plan. PBGC identified Facilities and Services Department
(FASD) as the central point for coordinating PBGC service continuity efforts. This includes the
development and testing of plans for hardware, communications, and application recovery.

While PBGC has many components of a contingency/disaster recovery plan in place, we still
identified a number of deficiencies that, in our view, would impair PBGC’s ability to respond
effectively to a disruption in business operations as a result of a disaster or other long-term
emergency. Furthermore, testing of the recovery process had not been consistent and mission-
critical systems had not been completely identified for testing. Specifically we noted the
following:

        •	   PBGC did not provide evidence of a formal Business Impact Analysis to identify and
             validate critical workloads. IRMD identified the mission-critical systems in the PBGC
             1999 Disaster Recovery Test Report. However, this process only identified the
             systems, not the workloads relative to recovery and processing. In addition, IRMD
             did not prioritize or document the systems in the PBGC Disaster Recovery and
             Business Continuity Plan.




                                                                                              2001-9/23149-2 

Report on Internal Control
Page 6

        •	   PBGC updated the existing disaster recovery plan in fiscal year 2000, but did not
             address the current computing environment at PBGC, including necessary mission
             critical systems, impacting the requirements to complete a recovery process.

        •	   PBGC has not identified or maintained relevant contact information for individuals
             responsible for managing the disaster recovery initiative, especially if critical
             individuals were not available.

        •	   Although PBGC defined a location where a recovery process would be initiated, it is
             still questionable whether the "hot site" would be available during an emergency to
             provide a full recovery.

        •	   PBGC performed only a partial test of the existing disaster recovery plan in fiscal year
             2000; specifically, PBGC did not completely test critical functions and did not
             establish a formal schedule of future tests. Alternatively, PBGC conducted a
             Continuity of Operations Plan (COOP) test, but every department did not participate
             in the test. As a result, PBGC has not determined if its COOP would be effective in
             the event of a disaster.

OMB Circular A-130, Management of Federal Information Resources, requires agencies to establish
controls for assuring adequate security for information processed, transmitted, or stored in
Federal automated information systems. Appendix III of the Circular emphasizes the importance
of developing a plan for restoring critical operations for a Federal agency’s information systems
environment. It anticipates that there will inevitably be some service interruptions to an entity’s
system environment. It further states that, “agency plans should assure that there is an ability
to recover and provide service sufficient to meet the minimal needs of users of the systems.”

Although PBGC has taken some steps in fiscal year 2000 to address disaster recovery and
business continuity, substantial improvements still need to be made to strengthen PBGC's
process to recover from an unanticipated disruption to its service. We believe PBGC remains
vulnerable should a disaster or an extended business disruption occur.

Recommendations

We recommend that PBGC:

        •	   Conduct a Business Impact Analysis to validate critical workloads. In addition,
             recovery priorities should be established and documented for mission critical
             systems. IRMD can serve as the central point for developing these priorities and help
             facilitate and coordinate the efforts required to complete this process; (OIG Control
             Number FASD-112)

        •	   Update the existing contingency/disaster recovery plan to reflect the current
             computing environment at PBGC; (OIG Control Number IRMD-104)

        •	   Verify that adequate user workspace is available to recover PBGC operations in the
             event of a disaster or long-term interruption to normal business functions; (OIG
             Control Number FASD-110)




                                                                                              2001-9/23149-2 

Report on Internal Control
Page 7

        •	   Maintain an up-to-date listing of the disaster recovery team and backup personnel
             with their relevant contact information and applicable responsibilities; (OIG Control
             Number FASD-111)

        •	   Develop detailed procedures for the recovery of PBGC operations; and (OIG Control
             Number FASD-114)

        •	   Test its contingency/disaster recovery procedures on a regular basis, using
             sufficiently detailed test plans and scenarios. Review and incorporate test results, as
             appropriate, in the contingency/disaster recovery plan in a timely manner. (OIG
             Control Number FASD-115)

3. Participant Record Information System Management (PRISM)

PBGC’s long-term ability to provide timely benefit payments to participants of terminated pension
plans and to prepare reliable financial statements is significantly dependent on its effectiveness
in managing accurate and complete participant records. During fiscal year 1998, PBGC
implemented PRISM system, an in-house database and information management system. The
PRISM system is an integrated information system developed to support PBGC's Insurance
Operations Department (IOD) in administering pension plan customers. The PRISM system also
provides an automated interface to PBGC’s paying agent.

Based on the results of our fiscal year 1999 testing, we reported that PBGC needed to implement
and improve controls surrounding PRISM to reduce risks associated with the benefit payment
process and participant record integrity. While PBGC made notable progress in developing formal
policies and procedures to administer the benefit payment process, our fiscal year 2000 audit
identified areas where controls could be further strengthened.

Data Integrity and Data Processing

During fiscal year 2000, PBGC undertook several data integrity and data processing initiatives,
which led to improvements in the controls surrounding the PRISM application. However, audit
procedures performed on participant records maintained in Genesis, the PRISM database,
identified that participant data anomalies still existed in the database. For example:

        •	   Participant records did not always agree to the supporting documentation in the
             Image Processing System (IPS); and

        •	   Participant records, including financial records (i.e., large lump sum payments), were
             missing proper source documentation in IPS.

Data anomalies within PRISM are due to a combination of factors, including (1) Pension and
Lump Sum (PLUS) System data errors that were carried over to Genesis as a result of the initial
data conversion, (2) data errors that were created during the initial data conversion from a pay-
based to a customer-based database, and (3) input and processing errors that occurred since
PRISM




                                                                                             2001-9/23149-2 

Report on Internal Control
Page 8

implementation. These data anomalies may impact both benefit payments and the calculation of
the Present Value Future Benefit (PVFB) liability.

To address data anomalies surrounding PRISM, PBGC established a Data Working Group
towards the end of fiscal year 1999 to analyze and prioritize data and system issues. This group’s
responsibility is to analyze system-related errors and inadequacies and to initiate and track
resolutions for these problems. During fiscal year 2000, the Data Working Group implemented
formal procedures and initiated efforts to address data anomalies. Also, PBGC initiated
additional new projects to address data anomalies in PRISM. For example, PBGC completed the
Automated Letter Generation (ALG) System Conversion in fiscal year 2000, which contributed to
a decrease in data redundancy. Progress on other initiatives continues.

In fiscal year 2000, PBGC made notable progress in implementing functionalities to identify
deceased participants and terminate benefits accordingly. PBGC implemented a data integrity
control known as “Deathmatch” with related policies and procedures formalized towards the end
of fiscal year 1999. This control enables the Corporation to identify deceased participants and
update PRISM records to properly terminate their benefits, thereby reducing the risk that benefit
payments may be disbursed to ineligible individuals. Although the appropriate “Deathmatch”
reports were produced, we noted that PBGC was not consistently addressing potential deceased
participants on the report and were not appropriately terminating benefits in a timely manner.

Also, we identified control weaknesses over the transmission of prepayment benefit data from
PBGC to PBGC’s paying agent and over the transmission of postpayment benefit data from
PBGC’s paying agent to PBGC. Specifically, we noted that unauthorized changes to the data
during the transmission process could take place without leaving an audit trial. This weakness
increases the risk of processing unauthorized benefit payments.

Currently the paying agent sends PBGC an acknowledgment file which includes the aggregate
number of transactions and aggregate number of social security changes that it received from
PBGC in the benefit payment data. This acknowledgement file is not sufficient to ensure the
completeness and accuracy of the benefit payment data received by the paying agent. Since the
benefit payment file is vulnerable to modifications during the transmission process, this
acknowledgment file is not an effective tool for identifying detailed changes made to the benefit
payment file.


Authorization, Monitoring, and Segregation of Duties

During the fiscal year 2000 audit, we identified control weaknesses surrounding the
authorization process. The general areas where weaknesses were noted are:

        •	   Changes to participants’ payment information made by PBGC and Field Benefit
             Administrators (FBAs) staff are forwarded to PBGC’s paying agent without
             appropriate levels of approval. In addition, PRISM does not generate effective audit
             trail reports to identify those changes to the participant’s information. This condition
             may potentially result in processing unauthorized payments.




                                                                                               2001-9/23149-2 

Report on Internal Control
Page 9

        •	   Changes to participants’ benefit information made by the Data Working Group are
             posted to participants’ record directly in PRISM without appropriate levels of
             approval. In addition, PRISM does not generate effective audit trail reports that
             identify changes to participant’s benefit information records. This condition may
             potentially result in processing unauthorized changes to participants’ benefit
             information in PRISM.

        •	   Monitoring of transactions or individual activities is not formalized or, sometimes, not
             being performed. While PRISM contains an authorization log and an audit trail for
             each transaction there were no formal reports produced for independent review, nor
             were there specific policies and procedures requiring supervisory review of such
             reports. Implementation of appropriate authorization and management monitoring
             controls would enable PBGC to detect potential unauthorized date modifications or
             activity.

        •	   The FBAs and Trusteeship Processing Divisions (TPDs) can establish authorization
             assignments at specific plan and authorization threshold levels. FBAs and TPDs can
             potentially use this feature to circumvent the random assignment of authorizations,
             which is a key control of the authorization process.

Our FY 2000 testing identified inadequate segregation of duties relating to the PRISM system. The
following instances were identified:

        •	   We identified instances where FBAs had access to cases outside of their respective
             jurisdiction. PRISM did not properly limit access to cases within their jurisdiction.

        •	   One group is responsible for preparing the payment file for the paying agent and
             processing the paying agent ledger file. This condition can potentially enable an
             individual to make unauthorized changes to the payment file and the payment agent
             ledger file.

        •	   The Document Management Center supervisor responsible for reviewing new plan
             information can modify the data before updating PRISM. PBGC does not have
             processes in place to independently review changes the Document Management
             Center supervisor may make during the review process. Thus, the Document
             Management Center supervisor has the ability to make unauthorized changes to new
             participants’ records.

        •	   Currently, the same person is responsible for both reviewing new plan data for
             completeness and accuracy and for transferring new plan data into PRISM. While
             evaluating new plan data during this process, this person can also make
             unauthorized changes to new plan data. The lack of segregation in this area
             increases the risk of processing unauthorized plan information.

        •	   In fiscal year 2000, we determined that the temporary authorizer feature is being
             used to define “temporary” authorizers with no end date. This feature could be used
             to circumvent the random assignment of authorizations, which is a key control of the
             authorization process management relies on. Also, one individual may be assigned
             multiple temporary




                                                                                              2001-9/23149-2 

Report on Internal Control
Page 10

            authorizations over time, which may lead to incompatible functions being performed
            by the same individual.

Other Control Deficiencies

Reconciliations between projected benefit payments as reported by the PRISM and disbursements
made by PBGC’s paying agent represent an important internal control over the benefit payment
process. PBGC performed Balancer module reconciliations between the projected benefit
payments and actual benefits paid by the paying agent. While performing these reconciliations,
PBGC noted several discrepancies between the two files. In response to errors noted during the
Balancer reconciliation process, PBGC implemented the Trial Balance application to reconcile
projected benefit payments to the payment file the paying agent received. This reconciliation
process should resolve discrepancies before actual disbursements are made. Since this
reconciliation was implemented at the beginning of fiscal year 2001, we were not able to assess
its effectiveness.

Recommendations:

The following recommendations remain outstanding from fiscal year 1998:

       •	   Perform an analysis of data integrity within the PRISM database and develop a formal
            corrective action plan; (OIG Control Number IOD-151)

       •	   Enforce policies and procedures that require participants' records in PRISM contain
            information that is adequately supported in IPS; (OIG Control Number IOD-172)

       •	   Analyze and improve system edits and processing controls within PRISM to minimize
            erroneous data input and data processing. Design and place in operation an
            exception reporting mechanism to mitigate the risk of unauthorized transactions
            processing; (OIG Control Number IOD-152)

       •	   Develop and enforce formal policies and procedures to provide sufficient user
            guidance, foster adequate segregation of duties, and establish accountability
            requirements; (OIG Control Number IOD-153)

       •	   Implement a reporting mechanism that provides sufficient information for a regular
            independent review of activities performed by PBGC and contractor personnel with
            administrator or equivalent access rights; (OIG Control Number IRMD-123)

       •	   Develop and implement controls to ensure the receipt of all data transmitted to PBGC
            from its paying agent, State Street Bank; (OIG Control Number IOD-184)

       •	   Develop and implement formal policies and procedures for the assignment of
            temporary authorization rights; (OIG Control Number IOD-186)




                                                                                            2001-9/23149-2 

Report on Internal Control
Page 11

        •	   Finalize policies and procedures related to reconciliations between projected benefit
             payments and actual disbursements and monitor their implementation; (OIG
             Control Number IOD-187)

        •	   Finalize “Deathmatch” policies and procedures and monitor their implementation;
             (OIG Control Number IOD-188)

        •	   Reassess the level of access to the PBGC’s paying agent Payment and Ledger files
             that is given to the Management Information Specialist. The PBGC’s paying agent
             files should not be directly modified using SQL queries and any changes made to the
             PBGC’s paying agent files should be re-submitted for authorization; (OIG Control
             Number IOD-193)

        •	   Restrict access to the PBGC’s paying agent FTP server by limiting access to the users
             that need to be involved in the integration process with PBGC’s paying agent. In
             addition, encrypt PBGC’s paying agent Payment and Ledger files; (OIG Control
             Number IRMD-124)

        •	   Add additional integrity checks to verify the integrity of the data received by PBGC’s
             paying agent; (OIG Control Number IOD-194)

        •	   Changes to the information used to process customer payments should be authorized
             before being sent to PBGC’s paying agent or at a minimum it should be logged and
             reviewed regularly; and (OIG Control Number IOD-195)

        •	   Changes made by the Data Working Group should be sent back for re-authorization
             (OIG Control Number IOD-196)

Our testing of controls surrounding PRISM in fiscal year 2000 resulted in additional
recommendations, as noted below:

        •	   Reassess use of the Authorizer Administration inclusion function. This functionality
             should be limited to special usage, logged and reviewed by PBGC management; (OIG
             Control Number IOD-197)

        •	   Segregate duties of individuals processing PBGC’s paying agent payments and
             PBGC’s paying agent ledger files; (OIG Control Number IOD-198)

        •	   Independently review changes made by the Document Management Center
             supervisor before they are submitted to OASD; (OIG Control Number IOD-199)

        •	   Segregate the functions of uploading and evaluating data into PRISM; and (OIG
             Control Number IOD-200)

        •	   Implement access controls in PRISM to limit user’s access to cases within their
             jurisdiction. (OIG Control Number IOD-201)




                                                                                               2001-9/23149-2 

Report on Internal Control
Page 12


                                              *******

We also noted other matters involving the internal control and its operation that we will
communicate in a separate letter.

This report is intended solely for the information and use of PBGC’s Office of Inspector General,
its Board of Directors, the management of PBGC, and the United States Congress, and is not
intended to be and should not be used by anyone other than these specified parties.




January 19, 2001
Arlington, Virginia




                                                                                            2001-9/23149-2 

             Section III


Report on Compliance with Applicable

       Laws and Regulations

                                                                              PricewaterhouseCoopers LLP
                                                                              1751 Pinnacle Drive
                                                                              McLean, VA 2212
                                                                              Telephone: (703) 918-3000
                                                                              Fax: (703) 918-3157

       Independent Accountants’ Report on Compliance with Laws and Regulations


To the Inspector General

Pension Benefit Guaranty Corporation 


We have audited the financial statements of the Single-Employer and Multiemployer Program 

Funds administered by the Pension Benefit Guaranty Corporation (PBGC or the Corporation) 

as of and for the year ended September 30, 2000, and have issued our report thereon dated 

January 19, 2001.


We conducted our audit in accordance with auditing standards generally accepted in the

United States of America and Government Auditing Standards. Those standards require that 

we plan and perform the audit to obtain reasonable assurance about whether the financial 

statements are free of material misstatement.


Compliance with laws and regulations applicable to PBGC is the responsibility of PBGC's 

management. As part of obtaining reasonable assurance about whether the financial 

statements are free of material misstatement, we performed tests of PBGC's compliance with

certain provisions of the Employee Retirement Income Security Act of 1974 (ERISA), the 

Federal Managers' Financial Integrity Act of 1982, the Retirement Protection Act of 1994, the 

Chief Financial Officers Act of 1990, and the Anti-Deficiency Act (limited to comparing the

Corporation's recorded payments to related authorized limitations on certain payments and

apportionments). However, the objective of our audit of the financial statements was not to

provide an opinion on overall compliance with such provisions. Accordingly, we do not express 

such an opinion. 


The results of our tests disclosed no instances of non-compliance that are required to be

reported herein under Government Auditing Standards. We identified a matter requiring 

emphasis as noted below.


During fiscal year 2000, PBGC executed two transactions that were characterized as 

multiemployer financial assistance payments. PBGC’s Office of General Counsel represented

that these transactions were executed in accordance with ERISA, as amended. However,

PBGC’s Office of Inspector General determined that further evaluation is warranted to

determine whether these transactions complied with ERISA and applicable regulations. As of 

the date of issuance of this report, the issue has not been resolved.


This report is intended solely for the information and use of PBGC’s Office of Inspector 

General, its Board of Directors, the management of PBGC, and the United States Congress,

and is not intended to be and should not be used by anyone other than these specified parties.





January 19, 2001 

Arlington, Virginia 

                                                                                    2001-9/23149-2 

              Section IV


Pension Benefit Guaranty Corporation's

 Fiscal Years 2000 and 1999 Financial

      Statements and Notes to the

          Financial Statements

PENSION BENEFIT GUARANTY CORPORATION
STATEMENTS OF FINANCIAL CONDITION
                                                                               Single-Employer          Multiemployer                Memorandum
                                                                                   Program                 Program                      Total
                                                                                 September 30,           September 30,               September 30,
(Dollars in millions)                                                         2000          1999     2000           1999          2000          1999

ASSETS
Cash and cash equivalents                                              $      341       $     334    $     8       $     9   $     349       $     343

Investments, at market (Note 3):
  Fixed maturity securities                                                11,719           10,239       671           669       12,390          10,908
  Equity securities                                                          8,186           7,342         3             3        8,189           7,345
  Real estate and real estate investment trusts                                16              13          0             0           16             13
  Other
                                                                       32              37          0             0          32              37
  Total investments
                                                       19,953           17,631       674           672       20,627          18,303

Receivables, net:

  Sponsors of terminated plans
                                                28              18          0             0          28              18
  Premiums (Note 9)
                                                          143             240          1             1         144             241
  Sale of securities
                                                          57              45          0             0          57              45
  Investment income
                                                          189             156         11            10         200             166
  Other
                                                                        2               5          0             0           2               5
  Total receivables
                                                          419             464         12            11         431             475

Furniture and fixtures, net
                                                    2               2          0             0           2               2

Total assets
                                                           $20,715          $18,431     $694          $692      $21,409         $19,123

The accompanying notes are an integral part of these financial statements.
PENSION BENEFIT GUARANTY CORPORATION
STATEMENTS OF FINANCIAL CONDITION
                                                                      Single-Employer         Multiemployer             Memorandum
                                                                         Program                Program                    Total
                                                                        September 30,         September 30,             September 30,
(Dollars in millions)                                              2000             1999   2000          1999        2000          1999


LIABILITIES
Present value of future benefits, net (Note 4):
  Trusteed plans                                                $ 9,426         $ 9,677    $     4      $     5   $ 9,430       $ 9,682

  Terminated plans pending trusteeship                               62              81          0            0       62             81

  Settlements and judgments                                         242             228          0            0      242           228

  Claims for probable terminations                                  901            1,087         0            0       901         1,087

  Total present value of future benefits, net                    10,631           11,073         4            5    10,635        11,078
Present value of nonrecoverable future
 financial assistance (Note 5)                                                                 414          479       414          479
Unearned premiums (Note 9)                                          206             208          9            9       215          217

Accounts payable and accrued expenses (Note 6)                      174             112          0            0       174          112
Commitments and contingencies
 (Notes 7, 8, and 14)

Total liabilities                                                 11,011          11,393       427          493    11,438        11,886

Net position                                                      9,704            7,038       267          199     9,971         7,237

Total liabilities and net position                              $20,715         $18,431    $694         $692      $21,409       $19,123

The accompanying notes are an integral part of these financial statements.
PENSION BENEFIT GUARANTY CORPORATION
STATEMENTS OF OPERATIONS AND CHANGES IN NET POSITION
                                                                     Single-Employer            Multiemployer                Memorandum
                                                                         Program                   Program                       Total
                                                                   For the Years Ended       For the Years Ended         For the Years Ended
                                                                      September 30,             September 30,               September 30,
(Dollars in millions)                                              2000           1999       2000           1999         2000            1999
UNDERWRITING:
Income:
  Premium (Note 9)                                              $ 807          $     902     $ 24         $ 23     $     831         $     925
  Other                                                              5                  3       0             0            5                  3
  Total                                                            812               905       24            23          836               928
Expenses:
 Administrative                                                    152               147        0             0          152               147
  Other                                                             (2)                (1)      0             0           (2)                (1)
  Total                                                            150               146        0             0          150               146
Other underwriting activity:
 Losses (credits) from completed and
  probable terminations (Note 10)                                 (80)                49        0             0          (80)               49
  Losses from financial assistance (Note 5)                                                    26           109           26               109
  Actuarial adjustments (Note 4)                                  (200)             (113)       0             0         (200)             (113)
  Total                                                           (280)               (64)     26           109         (254)               45
Underwriting income (loss)                                         942               823       (2)          (86)         940               737

FINANCIAL:
Investment income (loss) (Note 11):
  Fixed                                                           1,081             (805)      69           (57)        1,150             (862)
  Equity                                                          1,310            1,547        1             1         1,311            1,548
  Other                                                               1               (14)      0             0             1               (14)
  Total                                                          2,392               728       70           (56)       2,462               672
Expenses:
 Investment                                                         15                14        0             0           15                14
  Actuarial charges (Note 4):
   Due to passage of time                                          658               601        0             0          658               601
   Due to change in interest rates                                  (5)            (1,090)      0             0           (5)            (1,090)
  Total                                                            668              (475)       0             0          668              (475)
Financial income (loss)                                          1,724             1,203       70           (56)        1,794            1,147
Net income (loss)                                                2,666             2,026       68          (142)       2,734             1,884

Net position, beginning of year                                  7,038             5,012      199           341        7,237             5,353
Net position, end of year                                       $9,704         $ 7,038       $267         $ 199        $9,971        $ 7,237

The accompanying notes are an integral part of these financial statements.
PENSION BENEFIT GUARANTY CORPORATION
STATEMENTS OF CASH FLOWS
                                                                   Single-Employer          Multiemployer                Memorandum
                                                                       Program                  Program                      Total
                                                                 For the Years Ended     For the Years Ended          For the Years Ended
                                                                    September 30,             September 30,               September 30,
(Dollars in millions)                                              2000           1999      2000        1999          2000            1999
OPERATING ACTIVITIES:
 Premium receipts                                           $      902         $ 658       $ 24       $ 23       $     926         $ 681
 Interest and dividends received, net                              775            710          49         43           824            753
 Cash received from plans upon trusteeship                          32             17            0          0           32             17
 Receipts from sponsors                                             28             18            0          0           28             18
 Other receipts                                                     10             71            0          0           10             71
 Receipts of notes receivable                                        0              1            0          0            0              1
 Benefit payments - trusteed plans                                (895)          (886)          (1)        (1)        (896)          (887)
 Financial assistance payments                                                                 (91)       (19)         (91)           (19)
 Settlements and judgments                                        (162)          (125)           0          0         (162)          (125)
 Pretermination payments                                           (25)             0            0          0          (25)             0
 Payments for administrative and other
   expenses                                                       (175)          (158)           0          0         (175)          (158)
Net cash provided (used) by operating activities
 (Note 13)                                                         490            306          (19)       46           471            352


INVESTING ACTIVITIES:
 Proceeds from sales of investments                              12,824         5,727          401        88         13,225         5,815
 Payments for purchases of investments                       (13,307)          (6,392)      (383)      (146)     (13,690)          (6,538)
Net cash provided (used) by investing activities                  (483)          (665)          18        (58)        (465)          (723)
Net increase (decrease) in cash and
  cash equivalents                                                   7           (359)          (1)       (12)           6           (371)

Cash and cash equivalents, beginning of year                       334            693            9        21           343            714
Cash and cash equivalents, end of year                       $     341         $ 334       $     8    $     9    $     349         $ 343

The accompanying notes are an integral part of these financial statements.
NOTES TO FINANCIAL STATEMENTS
SEPTEMBER 30, 2000 AND 1999


Note 1 -- Organization and Purpose
         The Pension Benefit Guaranty Corporation (PBGC or the Corporation) is a federal corporation created by Title
IV of the Employee Retirement Income Security Act of 1974 (ERISA) and is subject to the provisions of the
Government Corporation Control Act. Its activities are defined in ERISA as amended by the Multiemployer Pension
Plan Amendments Act of 1980, the Single-Employer Pension Plan Amendments Act of 1986, the Pension Protection
Act of 1987, and the Retirement Protection Act of 1994. The Corporation insures pensions, within statutory limits, of
participants in covered single-employer and multiemployer defined benefit pension plans that meet the criteria specified
in Section 4021 of ERISA.
         ERISA requires that PBGC programs be self-financing. The Corporation finances its operations through
premiums collected from covered plans, assets assumed from terminated plans, collection of employer liability payments
due under ERISA as amended, and investment income. In addition, PBGC may borrow up to $100 million from the
U.S. Treasury to finance its operations. The Corporation did not use this borrowing authority during the years ended
September 30, 2000, or September 30, 1999, nor is use of this authority currently planned. ERISA provides that the
U.S. Government is not liable for any obligation or liability incurred by PBGC.
         Under the single-employer program, PBGC is liable for the payment of guaranteed benefits with respect only
to underfunded terminated plans. An underfunded plan may terminate only if PBGC or a bankruptcy court finds that
one of the four conditions for a distress termination, as defined in ERISA, is met or if PBGC involuntarily terminates
a plan under one of five specified statutory tests. The net liability assumed by PBGC is generally equal to the present
value of the future benefits (including amounts owed under Section 4022(c) of ERISA) less (1) the amounts that are
provided by the plan’s assets and (2) the amounts that are recoverable by PBGC from the plan sponsor and members
of the plan sponsor’s controlled group, as defined by ERISA.
         Under the multiemployer program, if a plan becomes insolvent, it receives financial assistance from PBGC to
allow the plan to continue to pay participants their guaranteed benefits. PBGC recognizes assistance as a loss to the
extent that the plan is expected to be unable to repay these amounts from future plan contributions, employer
withdrawal liability, or investment earnings.


Note 2 -- Significant Accounting Policies
         Revolving and Trust Funds: PBGC accounts for its single-employer and multiemployer programs’ revolving
and trust funds on an accrual basis. Each fund is charged its portion of the benefits paid each year. PBGC has
combined the revolving and trust funds for presentation purposes in the financial statements. The single-employer and
multiemployer programs are separate programs by law and, therefore, PBGC reports them
separately.
         ERISA provides for the establishment of revolving funds to be used by PBGC in carrying out its duties. The
revolving funds support the operational and administrative functions of PBGC and fund any deficits incurred by PBGC
in trusteeing plans or providing financial assistance. Premiums collected from ongoing plans are accounted for through
the revolving funds. The Pension Protection Act of 1987 created a single-employer revolving fund that is credited with
all premiums in excess of $8.50 per participant, including all penalties and interest charged on these amounts, as well
as investment income. This fund may not be used to pay PBGC’s administrative costs or the benefits of any plan
terminated prior to October 1, 1988, unless no other amounts are available.
        The trust funds reflect accounting activity associated with: (1) trusteed plans -- plans for which PBGC has legal
responsibility, (2) plans pending trusteeship -- terminated plans for which PBGC has not become legal trustee by fiscal
yearend, and (3) probable terminations -- plans that PBGC determines are likely to terminate and be trusteed by PBGC.
PBGC cannot exercise legal control over a plan’s assets until PBGC becomes trustee, which may be several years after
the date of plan termination.
        Allocation of Revolving and Trust Funds: PBGC allocates revolving and trust fund assets, liabilities, income,
and expenses to each program’s revolving and trust funds to the extent that such amounts are not directly attributable
to a specific fund. Revolving fund income is allocated on the basis of each program’s average cash available for
investment during the year while the expenses are allocated on the basis of each program’s present value of future
benefits. Revolving fund assets and liabilities are allocated on the basis of the yearend equity of each program’s
revolving funds. The plan assets acquired by PBGC and commingled at PBGC’s custodian bank are credited directly
to the appropriate fund while the earnings and expenses on the commingled assets are allocated to each program’s trust
funds on the basis of each trust fund’s value, relative to the total value of the commingled fund.
        Valuation Method: Consistent with accounting principles generally accepted in the United States of America
outlined in Statements of Financial Accounting Standards Nos. 35 (“Accounting and Reporting by Defined Benefit
Pension Plans”), 60 (“Accounting and Reporting by Insurance Enterprises”), 87 (“Employers’ Accounting for
Pensions”), and 133 (“Accounting for Derivative Instruments and Hedging Activities”), PBGC reports its assets and
liabilities at fair value. A primary objective of PBGC’s financial statements is to provide financial information that is
useful in assessing PBGC’s present and future ability to ensure that defined benefit pension plan beneficiaries receive
benefits when due. PBGC believes that measuring its assets and liabilities at fair value provides the most relevant
information to the reader.
        Cash and Cash Equivalents: Cash includes cash on hand and demand deposits. Cash equivalents are
securities with a maturity of one business day.
        Investment Valuation and Income: PBGC bases fair values on the last sale of a listed security, on the mean
of the “bid-and-asked” for nonlisted securities, or on a valuation model in the case of fixed-income securities that are
not actively traded. These valuations are determined as of the end of each fiscal year. Purchases and sales of securities
are recorded on the trade date. Investment income is accrued as earned. Dividend income is recorded on the ex-
dividend date. Realized gains and losses on sales of investments are calculated using an average cost basis. Any increase
or decrease in the market value of a plan’s assets occurring after the date on which the plan is terminated must, by law,
be credited to or suffered by PBGC (see Notes 3, 4, and 11).
        Sponsors of Terminated Plans, Receivables: The amounts due from sponsors of terminated plans or
members of their controlled group represent the settled claims for employer liability (underfunding as of date of plan
termination) and for contributions due their plan less an allowance for uncollectible amounts. PBGC discounts any
amounts expected to be received beyond one year for time and risk factors. Some agreements between PBGC and plan
sponsors provide for contingent payments based on future profits of the sponsors. The Corporation will report any
such future amounts realized in the period in which they accrue or are received.
         Premiums: Premiums receivable represent the earned but unpaid portion of the premiums for plans that have
a plan year commencing before the end of PBGC’s fiscal year and past due premiums deemed collectible, including
collectible penalties and interest. Unearned premiums represent an estimate of payments received during the fiscal year
that cover the portion of a plan’s year after the Corporation’s fiscal yearend. Premium income represents revenue
generated from self-assessments from defined benefit pension plans as required by Title IV of ERISA (see Note 9).
         Present Value of Future Benefits (PVFB): The PVFB is the estimated liability for future pension benefits
that PBGC is or will be obligated to pay with respect to trusteed plans and terminated plans pending trusteeship. This
liability is stated as the actuarial present value of estimated future benefits less the present value of estimated recoveries
from sponsors and members of their controlled group and the assets of terminated plans pending trusteeship. PBGC
also includes the estimated liabilities attributable to probable future plan terminations as a separate line item in the PVFB
(net of estimated recoveries and assets). To measure the actuarial present value, PBGC used assumptions to adjust the
value of those future payments to reflect the time value of money (by discounting) and the probability of payment (by
means of decrements, such as for death or retirement). PBGC also included anticipated expenses to settle the benefit
obligation in the determination of the PVFB.
         (1)	   Trusteed Plans -- represents the present value of future benefit payments less the present value of
                expected recoveries (for which a settlement agreement has not been reached with sponsors and members
                of their controlled group) for plans that have terminated and been trusteed by PBGC prior to fiscal
                yearend.
         (2) 	 Terminated Plans Pending Trusteeship -- represents the present value of future benefit payments less
                the plans’ net assets (at fair value) anticipated to be received and the present value of expected recoveries
                (for which a settlement agreement has not been reached with sponsors and members of their controlled
                group) for plans that have terminated but have not been trusteed by PBGC prior to fiscal yearend.
         (3)    Settlements and Judgments -- represents estimated liabilities related to settled litigation.
         (4)	   Net Claims for Probable Terminations -- includes reasonable estimates of the losses, net of plan assets
                and the present value of expected recoveries (from sponsors and members of their controlled group) for
                plans that are likely to terminate in a future year. These estimated losses are based on conditions that
                existed as of PBGC’s fiscal yearend. It is likely that one or more events subsequent to PBGC’s fiscal
                yearend will occur, confirming the fact of the loss.
         PBGC’s benefit payments to participants represent a reduction to the PVFB (see Note 4).
         Present Value of Nonrecoverable Future Financial Assistance: In accordance with Title IV of ERISA,
PBGC provides financial assistance to multiemployer plans, in the form of loans, to enable the plans to pay guaranteed
benefits to participants and reasonable administrative expenses. These loans, issued in exchange for interest-bearing
promissory notes, constitute an obligation of each plan.
         The present value of nonrecoverable future financial assistance represents the estimated nonrecoverable
payments to be provided by PBGC in the future to multiemployer plans that will not be able to meet their benefit
obligations. The present value of nonrecoverable future financial assistance is based on the difference between the
present value of future guaranteed benefits and expenses and the market value of plan assets, including the present value
of future amounts expected to be paid by employers, for those plans that are expected to require future assistance. The
amount reflects the rates at which, in the opinion of management, these liabilities (net of expenses) could be settled in
the market for single-premium nonparticipating group annuities issued by private insurers (see Note 5).
        Other Expenses: These expenses represent a current period estimate of the net amount of receivables deemed
to be uncollectible. The estimate is based on the most recent status of the debtor (e.g., sponsor), the age of the
receivables, and other factors that indicate the element of uncollectibility in the receivables outstanding.
        Losses from Completed and Probable Terminations: Amounts reported as losses from completed and
probable terminations represent the difference as of the date of plan termination between the present value of future
benefits (including amounts owed under Section 4022(c) of ERISA) assumed, or expected to be assumed, by PBGC,
less related plan assets and the present value of expected recoveries from sponsors and members of their controlled
group (see Note 10). In addition, the plan’s net income from date of plan termination to the beginning of the fiscal year
is included as a component of losses from completed and probable terminations for plans with termination dates prior
to the year in which they were added to PBGC’s inventory of terminated plans.
        Actuarial Adjustments and Charges: PBGC classifies actuarial adjustments related to changes in method
and the effect of experience as underwriting activity. Actuarial charges related to changes in interest rates and passage
of time are classified as financial activity. These adjustments and charges represent the change in the PVFB that results
from applying actuarial assumptions in the calculation of future benefit liabilities (see Note 4).
        Depreciation: PBGC calculates depreciation of its furniture and equipment on a straight-line basis over the
estimated useful lives of the assets. The useful lives range from 5 to 10 years. Routine maintenance and leasehold
improvements (the amounts of which are not material) are charged to operations as incurred.


Note 3 -- Investments
        Premium receipts are invested in securities issued by the U.S. Government.
        The trust funds include assets PBGC acquires or expects to acquire with respect to terminated plans and
investment income thereon. These assets generally are held by custodian banks.
        The basis and market value of the investments by type are detailed below. The basis indicated is cost of the
asset if acquired after the date of plan termination or the market value at date of plan termination if the asset was
acquired as a result of a plan’s termination. Realized and unrealized gains and losses, in addition to interest and
dividends earned on these investments, are disclosed in Note 11.
INVESTMENTS OF SINGLE-EMPLOYER REVOLVING FUNDS AND SINGLE-EMPLOYER TRUSTEED PLANS
(Dollars in millions)
                                                                         September 30,                   September 30,
                                                                             2000                            1999
                                                                                  Market                           Market
                                                                       Basis       Value               Basis        Value
Fixed maturity securities:
  U.S. Government securities                                         $11,110      $11,299            $10,172      $ 9,987
  Commercial paper                                                        27           27                 34           34
  Corporate bonds                                                        393          393                218          218
  Subtotal                                                            11,530       11,719             10,424       10,239
Equity securities                                                      4,150        8,186              4,376        7,342
Real estate and real estate investment trusts                             15           16                 11           13
Other:
  Insurance contracts                                                     35           31                 49            36
  Other investments                                                        1            1                  1             1
Total                                                                $15,731      $19,953            $14,861       $17,631




INVESTMENTS OF MULTIEMPLOYER REVOLVING FUNDS AND MULTIEMPLOYER TRUSTEED PLANS
(Dollars in millions)
                                                                       September 30,                      September 30,
                                                                            2000                              1999
                                                                                 Market                             Market
                                                                    Basis         Value                Basis         Value
Fixed maturity securities:
  U.S. Government securities                                        $660          $671                 $681          $669
Equity securities                                                      2             3                    2             3
Total                                                               $662          $674                 $683          $672


                        Derivative Investments: Financial Accounting Standard No. 133 is effective for all fiscal quarters of all fiscal
            years beginning after June 15, 2000. PBGC has elected early adoption beginning with fiscal year 2000. The
            implementation had no impact on prior year statements. During fiscal years 1999 and 2000, PBGC invested in an
            investment product that contained Standard & Poor’s (S&P) 500 financial futures contracts. The purpose of this
            investment strategy is to exceed, net of fees, the total rate of return over the S&P 500 Index, while maintaining a very
            similar risk level to that of the index. PBGC is accomplishing the objective typically, but not exclusively, by holding long
            positions in stock index futures while actively managing liquid debt securities backing the futures positions.
                        In addition to the initial margin of approximately 5 percent maintained with the broker in Treasury bills, S&P
            500 financial futures contracts require daily settlement of variation margin. For the fiscal years ended September 30,
            2000, and September 30, 1999, gains and losses from settled margin calls are reported in Investment Income on the
            Statements of Operations and Changes in Net Position. PBGC limits its investment in these derivative instruments to
            the aggregate investment in a single fund. At September 30, 2000, and September 30, 1999, the notional cost amount
            of the derivative investments (the face amount specified in the contract) was approximately $371 million and $201
            million, respectively. The fair value of the derivative instruments (the amount needed to settle at September 30) reported
            on the Statements of Financial Condition was approximately $5 million (included in Accounts payable and accrued
            expenses) and $3 million (included in Receivables, net: Other) at September 30, 2000, and September 30, 1999,
            respectively.
         The S&P 500 financial future contracts are traded on organized exchanges and thus bear minimal credit risk.
The exchange clears, settles, and guarantees transactions occurring through its facilities. Institutional investors hold
these future contracts on behalf of PBGC and mark to market daily. In periods of extreme volatility, margin calls may
pose a liquidity threat to the underlying portfolio. To mitigate this, PBGC maintains adequate liquidity in its portfolio
to meet these margin calls.


Note 4 -- Present Value of Future Benefits
         The following table summarizes the actuarial adjustments, charges, and credits that explain how the
Corporation’s single-employer program liability for the present value of future benefits changed for the years ended
September 30, 2000 and 1999.
         PBGC used a 25-year select interest rate of 7.0% followed by an ultimate rate of 6.75% for 2000 and a 25-year
select interest rate of 7.0% followed by an ultimate rate of 6.5% for 1999. These rates were determined to be those
needed to continue to match the survey of annuity prices provided by the American Council of Life Insurers. PBGC’s
regulations state that both the interest rate and the length of the select period may vary to produce the best fit with these
prices. The prices reflect rates at which, in the opinion of management, the liabilities (net of expenses) could be settled
in the market at September 30, for single-premium nonparticipating group annuities issued by private insurers. Many
factors, including Federal Reserve policy, may impact these rates.
         PBGC used the 1994 Group Annuity Mortality (GAM) Static Table (with margins), set forward two years and
projected 14 years to 2008 using Scale AA.
         The reserve for administrative expenses in the 2000 and 1999 valuation was assumed to be 1.18 percent and
1.3 percent, respectively, of benefit liabilities plus additional reserves for cases whose plan asset determinations,
participant database audits, and actuarial valuations were not yet complete. The factors to determine the additional
reserves were based on case size, number of participants, and time since trusteeship. PBGC updated the expense model
in 2000 based on a study prepared by an independent consultant.
         The present values of future benefits for trusteed multiemployer plans for 2000 and 1999 reflect the payment
of benefits and the changes in interest assumptions, passage of time, and the effect of experience.
         The resulting liability represents PBGC’s best estimate of the measure of anticipated experience under these
programs.
RECONCILIATION OF THE PRESENT VALUE OF FUTURE BENEFITS FOR THE YEARS ENDED SEPTEMBER 30, 2000 AND 1999
(Dollars in millions)

                                                                                                                              September 30,

                                                                                                         2000                                           1999

Present value of future benefits, at beginning
      of year -- Single-Employer, net                                                                             $11,073                                        $12,281
  Estimated recoveries                                                                                                 30                                             12
  Assets of terminated plans pending trusteeship, net                                                                  41                                             29
  Present value of future benefits at beginning of year, gross                                                     11,144                                         12,322
  Settlements and judgments                                                                                          (228)                                          (319)
  Net claims for probable terminations, prior year                                                                 (1,087)                                        (1,426)
  Actuarial adjustments -- underwriting:
    Changes in method and assumptions                                                            $ (109)                                       $ (105)
    Effect of experience                                                                            (91)                                           (8)
    Total actuarial adjustments -- underwriting                                                    (200)                                         (113)
  Actuarial charges (credits) -- financial:
    Passage of time                                                                                  658                                          601
    Change in interest rates                                                                          (5)                                      (1,090)
    Total actuarial charges (credits) -- financial                                                   653                                         (489)
  Total actuarial charges (credits)                                                                                    453                                           (602)
  Terminations:
    Current year                                                                                     439                                          614
    Changes in prior year                                                                            (42)                                         141
    Total terminations                                                                                                397                                             755
  Benefit payments*                                                                                                  (902)                                           (901)
  Estimated recoveries                                                                                               (205)                                            (30)
  Assets of terminated plans pending trusteeship, net                                                                 (84)                                            (41)
  Settlements and judgments                                                                                           242                                             228
  Net claims for probable terminations:
    Future benefits**                                                                              2,752                                        2,851
    Estimated plan assets and recoveries from sponsors                                            (1,851)                                      (1,764)
    Total net claims, current year                                                                                     901                                          1,087
Present value of future benefits,
  at end of year -- Single-Employer, net                                                                            10,631                                        11,073
Present value of future benefits,
  at end of year -- Multiemployer                                                                                       4                                              5
Total present value of future benefits, at end of year, net                                                       $10,635                                        $11,078

*           The benefit payments of $902 million and $901 million include $7 million in 2000 and $15 million in 1999 for benefits paid from plan assets by plans prior to trusteeship.

**	         The future benefits for probable terminations of $2,752 million and $2,851 million for fiscal years 2000 and 1999, respectively, include $119 million and $124 million,
            respectively, in net claims (future benefits less estimated plan assets and recoveries) for probable terminations not specifically identified and $2,633 million and
            $2,727 million, respectively, in net claims for specifically identified probables.




ASSETS OF SINGLE-EMPLOYER TERMINATED PLANS PENDING TRUSTEESHIP, NET
(Dollars in millions)
                                                      September 30,                                                                     September 30,
                                                          2000                                                                              1999
                                                               Market                                                                             Market
                                                 Basis          Value                                                                Basis         Value
U.S. Government securities                        $ 2            $ 2                                                                  $ 0             $ 0
Corporate bonds                                    14              14                                                                  19              19
Equity securities                                  36              37                                                                  17              17
Insurance contracts                                 3               3                                                                    5              5
Other                                              28              28                                                                    0              0
Total, net                                        $83            $84                                                                  $41             $41

                        Net Claims for Probable Terminations: Factors that are presently not fully determinable may be responsible
            for these claim estimates differing from actual experience. Included in net claims for probable terminations is a provision
            for future benefit liabilities for plans not specifically identified.
                     The values recorded in the following reconciliation table have been adjusted to the expected dates of termination.

RECONCILIATION OF NET CLAIMS FOR PROBABLE TERMINATIONS
(Dollars in millions)

                                                                                                 September 30,
                                                                                      2000                                 1999

Net claims for probable terminations, at beginning of year                                   $1,087                               $1,426 

New claims                                                                    $ 36                               $ 158 

Actual terminations                                                            (99)                               (247)

Eliminated probables                                                           (53)                                (51)

Change in benefit liabilities                                                   27                                (243)

Change in plan assets                                                          (35)                                (34)

Change in expected recoveries                                                  (62)                                 78 

Loss on probables                                                                             (186)*                                (339)*

Net claims for probable terminations, at end of year                                         $ 901                                $1,087 


* See Note 10


          Note 5 -- Multiemployer Financial Assistance
                     PBGC provides financial assistance to multiemployer defined benefit pension plans in the form of loans. An
          allowance is set up to the extent that repayment of these loans is not expected.


NOTES RECEIVABLE 

MULTIEMPLOYER FINANCIAL ASSISTANCE

(Dollars in millions)
                                                                      September 30,
                                                              2000                 1999
Gross balance at beginning of year                           $ 43                 $ 38
Financial assistance payments--
  current year                                                  4**                  5**
Subtotal                                                       47                   43
Allowance for uncollectible amounts                           (47)                 (43)
Net balance at end of year                                   $ 0                  $ 0



                     The losses from financial assistance reflected in the Statements of Operations and Changes in Net Position include
          annual changes in the estimated present value of nonrecoverable future financial assistance and assistance granted that was
          not previously accrued.
PRESENT VALUE OF NONRECOVERABLE FUTURE FINANCIAL
ASSISTANCE AND LOSSES FROM FINANCIAL ASSISTANCE
(Dollars in millions)

                                                                          September 30,
                                                                 2000                  1999
Balance at beginning of year                                    $479                  $389
Changes in allowance:
 Losses from financial assistance                                 26                      109
 Financial assistance granted
    (previously accrued)                                         (91)**                 (19)**
Balance at end of year                                          $414                  $479

**	 In FY 2000, PBGC provided nonrecoverable one-time financial assistance to two plans in the amount of $87 million and $4 million to 19 other plans in
    exchange for notes receivable. During FY 1999, PBGC provided nonrecoverable one-time financial assistance to one plan in the amount of $14 million and
    $5 million to 20 other plans in exchange for notes receivable.



          Note 6 -- Accounts Payable and Accrued Expenses
                     The following table itemizes accounts payable and accrued expenses reported in the Statements of Financial
          Condition:

ACCOUNTS PAYABLE AND ACCRUED EXPENSES
(Dollars in millions)
                                                                      September 30,
                                                                  2000              1999

Due for purchase of securities                                    $144              $ 59
Annual leave                                                         4                 3
Other payables and accrued expenses                                 26                50
Accounts payable and accrued expenses                             $174              $112




          Note 7 -- Contingencies
                     There are a number of large single-employer plans that may terminate. In addition, there are some multiemployer
          plans that may require future financial assistance. The amounts disclosed below represent the Corporation’s best estimates
          given the inherent uncertainties about these plans.
                     PBGC estimated that total unfunded vested benefits on termination of single-employer plans that represented
          reasonably possible exposure as of September 30, 2000, was approximately $5 billion. This exposure was principally in
          primary metals and fabricated metal products (steel), air transportation, general merchandise - retail trade, electronic and
          other equipment, rubber and miscellaneous plastics, apparel and accessory stores, and transportation equipment industries.
          PBGC calculated this estimate as in previous years by using data obtained from filings with the government and corporate
          annual reports for fiscal years ending in calendar 1999. The Corporation adjusted the value reported for liabilities to the
          December 31, 1999, PBGC select interest rate of 7.0%. When available, data was adjusted to a consistent set of mortality
          assumptions. The Corporation eliminated plans not insured by PBGC from the data. PBGC made no provision for the
          possible failure of the plan sponsor to make subsequent contributions or for plan liabilities that would be incurred after
          that date.
                     PBGC included amounts in the liability for the present value of nonrecoverable future financial assistance (see
          Note 5) for multiemployer plans that PBGC estimated may require future financial assistance. In addition, PBGC
      currently estimates that it is reasonably possible that other multiemployer plans may require future financial assistance in
      the amount of $119 million.
              The Corporation calculated the future financial assistance liability for each multiemployer plan identified as
      probable or reasonably possible as the present value of guaranteed future benefit and expense payments net of any future
      contributions or withdrawal liability payments as of the later of September 30, 2000, or the projected (or actual, if known)
      date of plan insolvency, discounted back to September 30, 2000, using interest only. The Corporation’s identification of
      plans that are likely to require such assistance and estimation of related amounts require consideration of many complex
      factors. These factors are affected by future events, including actions by plans and their sponsors, most of which are
      beyond the Corporation’s control.
              PBGC used select and ultimate interest rate assumptions of 7.0% for the first 25 years after the valuation date
      and 6.75% thereafter. The Corporation also used the 1994 Group Annuity Mortality Static Table (with margins), set
      forward two years, projected to 2008 using Scale AA.

      Note 8 -- Commitments
              PBGC leases its office facility under a commitment that began on December 11, 1993, and expires December 10,
      2008. The lease provides for periodic rate increases based on increases in operating costs and real estate taxes over a base
      amount. In addition, PBGC is leasing space for field benefit administrators. These leases began in 1996 and expire in
      2009. The minimum future lease payments for office facilities having noncancellable terms in excess of one year as of
      September 30, 2000, are as follows:

COMMITMENTS: FUTURE LEASE PAYMENTS
(Dollars in millions)
Years Ending                                                                              Operating
September 30,                                                                               Leases
2001                                                                                        $ 12.1
2002                                                                                           12.2
2003                                                                                           12.1
2004                                                                                           12.3
2005                                                                                           12.5
Thereafter                                                                                     42.8
Minimum lease payments                                                                      $104.0



              Lease expenditures were $11.8 million in 2000 and $11.7 million in 1999.

      Note 9 -- Premiums
              For both the single-employer and multiemployer programs, ERISA provides that PBGC shall continue to
      guarantee basic benefits despite the failure of a plan administrator to pay premiums when due. PBGC assesses interest
      and penalties on the unpaid amount for late payment or underpayment of premiums. Late payment interest continues to
      accrue until the premium and the interest due are paid, while the amount of penalty that can be levied is capped at 100
      percent of the premium late payment or underpayment. Annual premiums for the single-employer program are $19 per
      participant for a fully funded plan. Underfunded single-employer plans pay an additional variable-rate charge, based on
      funding levels. The multiemployer premium is $2.60 per participant.
          Note 10 -- Losses (Credits) from Completed and Probable Terminations
                     Amounts reported as losses are the present value of future benefits (including amounts owed under Section
          4022(c)) less related plan assets and the present value of expected recoveries from sponsors. The following table details
          the components that make up the losses:

LOSSES (CREDITS) FROM COMPLETED AND PROBABLE TERMINATIONS -- SINGLE-EMPLOYER PROGRAM
(Dollars in millions)
                                                            For the Years Ended September 30,
                                                2000                                             1999
                                                Changes in                                        Changes in
                                        New      Prior Year                                New    Prior Year
                                 Terminations Terminations        Total            Terminations Terminations                 Total
Present value of future benefits         $439       $ (42)      $397                      $614         $141                $ 755
Less plan assets                          302           (9)      293                        386          16                  402
Plan asset insufficiency                  137          (33)      104                        228         125                  353
Less estimated recoveries                  11          163       174                          4           (4)                  0
Subtotal                                 $126       $ (196)      (70)                     $224         $129                  353
Settlements and judgments                                        176                                                          35
Probables                                                       (186) *                                                     (339)*
Total                                                          $ (80)                                                      $ 49

* See Note 4


          Note 11 -- Financial Income
FINANCIAL INCOME
(Dollars in millions)
                                       For the Years Ended
                                          September 30,
                                     2000                      1999
Fixed-income securities:
  Interest earned                    $ 	 826                 $ 742
  Realized gain (loss)                   (73)                    57
  Unrealized gain (loss)                 397                 (1,661)
  Total fixed-income securities        1,150                   (862)
Equity securities:
  Dividends earned                       33                      46
  Realized gain                         207                     513
  Unrealized gain                     1,071                     989
  Total equity securities             1,311                   1,548
Other income (loss)                       1                     (14)
Total financial income               $2,462                  $ 672



          Note 12 -- Employee Benefit Plans
                     All permanent full-time and part-time PBGC employees are covered by the Civil Service Retirement System
          (CSRS) or the Federal Employees Retirement System (FERS). Full-time and part-time employees with less than five
          years service under CSRS and hired after December 31, 1983, are automatically covered by both Social Security and
          FERS. Employees hired before January 1, 1984, participate in CSRS unless they elected and qualified to transfer to
          FERS.
                     The Corporation’s contribution to the CSRS plan, for both 2000 and 1999, was 8.51 percent of base pay for
          those employees covered by that system. For those employees covered by FERS, the Corporation’s contribution was
          10.7 percent of base pay for both 2000 and 1999. In addition, for FERS-covered employees, PBGC automatically
          contributes 1 percent of base pay to the employee’s Thrift Savings account, matches the first 3 percent contributed by
          the employee, and matches one-half of the next 2 percent contributed by the employee. Total retirement plan expenses
          amounted to $8 million in 2000 and $7 million in 1999.
                     These financial statements do not reflect CSRS or FERS assets or accumulated plan benefits applicable to PBGC
          employees. These amounts are reported by the U.S. Office of Personnel Management (OPM) and are not allocated to
          the individual employers. OPM accounts for federal health and life insurance programs for those eligible retired PBGC
          employees who had selected federal government-sponsored plans. PBGC does not offer other supplemental health and
          life insurance benefits to its employees.


          Note 13 -- Cash Flows
                     The following is a reconciliation between the net income as reported in the Statements of Operations and
          Changes in Net Position and net cash provided by operating activities as reported in the Statements of Cash Flows.


RECONCILIATION OF NET INCOME TO NET CASH PROVIDED BY OPERATING ACTIVITIES
(Dollars in millions)
                                                  Single-Employer        Multiemployer                                    Memorandum
                                                      Program              Program                                           Total

                                                                        September 30,             September 30,             September 30,
                                                                      2000       1999           2000       1999           2000       1999
Net income (loss)                                                  $ 2,666     $2,026           $ 68      $(142)       $ 2,734     $1,884
Adjustments to reconcile net income to net cash
 provided by operating activities:
   Net appreciation in fair value of investments                   (1,624)        19             (20)       101         (1,644)      120
   Net income of terminated plans pending trusteeship                  (1)        (2)              0          0             (1)       (2)
   Loss on completed and probable terminations                        (80)        49               0          0            (80)       49
   Actuarial charges (credits)                                        453       (602)              0          0            453      (602)
   Benefit payments-trusteed plans                                   (895)      (886)             (1)        (1)          (896)     (887)
   Settlements and judgments                                         (162)      (125)              0          0           (162)     (125)
   Cash received from plans upon trusteeship                           32         17               0          0             32        17
   Pretermination payments                                            (25)         0               0          0            (25)        0
   Settlements recorded and paid in full during current year           21         10               0          0             21        10
   Changes in assets and liabilities, net of effects
      of trusteed and pending plans:
         (Increase) decrease in receivables                            45       (182)             (1)        (2)           44       (184)
         (Increase) decrease in present value of nonrecoverable
           future financial assistance                                                           (65)       90           (65)        90
         Decrease in unearned premiums                                 (2)      (58)               0         0            (2)       (58)
         Increase in accounts payable                                  62        40                0         0            62         40
Net cash provided by operating activities                         $   490     $ 306             $(19)     $ 46         $ 471      $ 352



          Note 14 -- Litigation
                  PBGC records as a liability on its financial statements an estimated cost for unresolved litigation to the extent that
          losses in such cases are probable and estimable in amount. In addition to such recorded costs, PBGC estimates that
          possible losses of up to $30 million could be incurred in the event that PBGC does not prevail in these matters.
Note 15 -- Subsequent Event
     On December 21, 2000, the Consolidated Appropriations Act, 2001, was signed into law. The Act includes a
provision that increases the maximum benefit guarantee for workers in multiemployer pension plans. The legislation
marks the first increase in PBGC’s multiemployer guarantee since 1980. The increased guarantee limit will apply to any
multiemployer plan that had not received PBGC financial assistance during the one-year period prior to the enactment
of the bill on December 21, 2000. The effect of this material increase will be accounted for in the present value of
nonrecoverable future financial assistance on the Statements of Financial Condition at September 30, 2001.
   Section V


Agency Comments

